No. 20-751
IN THE

Supreme Court of tfje ®mteb States;
ASHLEY ANN KRAPACS,
Petitioner,
v.
THE FLORIDA BAR,
Respondent.
On Petition for Writ of Certiorari to the
Supreme Court of Florida

PETITION FOR REHEARING

Ashley Ann Krapacs
PO Box 21665
Fort Lauderdale, FL 33335
(202) 341-1509
KrapacsAA@gm ail. com
Pro se Petitioner

RECEIVED
MAR -8 2021

FEBRUARY 1, 2021

1

TABLE OF CONTENTS
TABLE OF CONTENTS

1

TABLE OF AUTHORITIES

n

PETITION FOR REHEARING

1

CONCLUSION

8

APPENDIX

9

11

TABLE OF AUTHORITIES
WEB SOURCES
Associated Press, Lawyers Want Giuliani Investigated, License Suspended (2021),
available at https://www.usnews.com/news/us/articles/2021-01-21/lawyerswant-giuliani-investigated-license-suspended................................................... 3
Breuninger, Kevin, Dominion sues Rudy Giuliani in $1.3 billion defamation case,
doesn’t rule out suing Trump (2021), available at
https://www.cnbc.com/2021/01/25/dominion-files-defamation-lawsuit-againstrudy-giuliani-for-election-claims.html
2
Durkee, Alison, Trump And The GOP Have Now Lost More Than 50 Post-Election
Lawsuits (2020), available at
https://www.forbes.com/sites/alisondurkee/2020/12/08/trump-and-the-gophave-now-lost-50-post-election-lawsuits/?sh=5d431b6c2960........................... 2
Sabrina Eaton, Sen. Sherrod Brown of Ohio files ethics complaint against
Republican Sens. Ted Cruz and Josh Hawley (2021), available at
https://www.msn.com/en-us/news/politics/sen-sherrod-brown-of-ohio-filesethics-complaint-against-republican-sens-ted-cruz-and-josh-hawley/arBBlcYENZ......................................................................................................... 5-6
Errol Louis, Ted Cruz and Josh Hawley have been playing with dynamite (2021),
available at https://www.cnn.com/2021/01/22/opinions/ted-cruz-josh-hawleyethics-complaint-capitol-riot-louis/index.html.................................................... 5

1
PETITION FOR REHEARING
This Petition for Rehearing is restricted to the grounds specific in Rule 44.2,
namely intervening circumstances of substantial or controlling effect and substantial
grounds not previously presented.
Petitioner, Ashley Ann Krapacs, filed her Petition for Writ of Certiorari on
November 24, 2020. Petitioner argued that the actions taken against her by The
Florida Bar violated her First Amendment Right to freedom of speech. On December
24, 2020, based upon the events that transpired in Florida, the New York Bar also
disbarred Petitioner. (App. 1). Petitioner’s First Amendment Right to freedom of
speech has now been violated by both the Florida Bar and the New York Bar.
Petitioner argued in her Petition for Writ of Certiorari that there are
unresolved questions regarding the extent of First Amendment protections, freedom
of speech and freedom of the press, particularly regarding political statements made
by attorneys. Recent events, specifically those that transpired between the filing of
this case and the denial of the writ of certiorari, demonstrate the dire need for
clarification on this issue by this Court that would result in clear guidelines for both
attorneys and state bars regarding what is acceptable under the First Amendment.
From November 2020 through January 2021, many high-profile male
attorneys made a plethora of statements via social media as well as various media
outlets regarding the November 2020 election. Many of these statements were
patently false, unsupported by any evidence, and many of these statements incited

2

violence and resulted in the insurrection of the United State Capitol on January 6,
2021, a tragic event that resulted in loss of life.
In particular, the actions and statements of New York lawyer Rudy Giuliani
from November 2020 through January 2021 are particularly disturbing. Giuliani, in
addition to filing more than 50 lawsuits on behalf of former president Donald J.
Trump which had no basis in law or fact, made numerous statements regarding
election fraud although no actual evidence of fraud existed. Alison Durkee, Trump
And The GOP Have Now Lost More Than 50 Post-Election Lawsuits (2020), available
at

https://www.forbes.com/sites/alisondurkee/2020/12/08/trump-and-the-gop-have-

now-lost-50-post-election-lawsuits/?sh=5d431b6c2960.

Giuliani’s

actions

and

statements strike at the heart of our democratic system. As a result of his conduct,
Dominion Voting Systems filed a civil defamation lawsuit against Giuliani on
January 25, 2021. Kevin Breuninger, Dominion sues Rudy Giuliani in $1.3 billion
defamation

case,

doesn’t

rule

out

suing

Trump

(2021),

available

at

https://www.cnbc.com/2021/01/25/dominion-files-defamation-lawsuit-against-rudygiuliani-for-election-claims.html. Dominion estimates they suffered $1.3 billion in
damages due to Giuliani’s false statements regarding voter fraud. The damage to the
legal profession as a result of Giuliani’s actions, however, is incalculable. The general
public, watching and reading a New York attorney repeatedly spouting off lies on
behalf of the former president, paints a picture that such conduct by attorneys is
acceptable and/or commonplace, only perpetuating negative stereotypes that many in
the general public already harbor about attorneys.

3

The New York Bar sat idly by as Giuliani’s assault on our constitutional
democracy continued. It was only recently that the New York Bar became involved,
only after the group Lawyers Defending American Democracy filed a formal ethics
complaint against Giuliani on January 22, 2021. Associated Press, Lawyers Want
Giuliani

Investigated,

License

Suspended

(2021),

available

at

https://www.usnews.eom/news/us/articles/2021-01-21/lawyers-want-giulianiinvestigated-license-suspended.1 For more than two months, the New York Bar failed
to respond in any way to Giuliani’s abhorrent conduct. The New York Bar disbarred
Petitioner in December 2020 for making political statements that pale in comparison
to those made by Giuliani. The harsh standard applied to Petitioner in New York due
to her public political statements obviously is not being applied to Giuliani, perhaps
because he is male, or perhaps because of his high profile. Regardless of the reason
for the inconsistent application of the rules regulating attorneys in New York, the
result is the same: some New York lawyers, like Giuliani, are afforded greater First
Amendment protections of freedom of speech than others, such as Petitioner.
In addition to the recent false statements made by Giuliani and the filing of
dozens of frivolous lawsuits, at least two members of Congress (both male attorneys)
made public statements which incited violence and ultimately lead to the insurrection
of the United States Capitol on January 6, 2021. The most inflammatory of those

1 It is important to note that while attorney disciplinary proceedings typically begin when a
complaint is filed against an attorney, state bars have the authority to initiate complaints against
attorneys without waiting for a member of the general public to file a complaint.

4

statements include those made by Senator Ted Cruz of Texas and Senator Josh
Hawley of Missouri.
Senator Cruz, a Texas attorney, took to Twitter and various other media
outlets from November 2020 through the present repeatedly alleging that serious
claims of voter fraud existed. As of this filing, no evidence of voter fraud has been
presented. His statements, unsupported by evidence, have caused substantial
damage to the integrity of the election process and constitute a blatant assault on our
democratic system. Senator Cruz ultimately joined a group of GOP senators in
objecting to the certification of the election, despite that the election results had
already been challenged dozens of times in the courts without success and despite
multiple recounts. Senator Cruz’s dangerous statements and actions gave unfounded
legitimacy to claims that the election was rigged, which empowered a mob of
protestors to infiltrate the United States Capitol and attempt to assassinate many
members of the House of Representatives. Senator Cruz, who is an attorney licensed
in Texas, has perpetuated false statements and spread inflammatory rhetoric without
evidence to back up his claims, and as a result has tarnished the image of the legal
profession and caused a massive threat against national security.
Senator Hawley also gave credence to numerous claims of voter fraud,
particularly regarding elections results in Pennsylvania, despite there being no
evidence that the election in Pennsylvania was tainted and despite recounts and legal
rulings that the election was conducted lawfully there. Senator Hawley publicly
voiced his intent to join Senator Cruz in objecting to the certification of the election,

5
despite no evidence of voter fraud. His false statements that the election was tainted
also fueled the angry mob that invaded the United States Capitol on January 6, 2021.
Senator Hawley, a Missouri attorney, has also conducted himself in a manner that
causes great damage to the integrity of the legal profession.
The goal of the violent attack on the United States Capitol on January 6, 2021
was to overturn the election of President Joe Biden, and that agenda was directly
advanced by Senator Cruz and Senator Hawley, despite the complete lack of evidence
of voter fraud. Their calls to invalidate the votes of tens of millions of voters shock
the conscience and erode our election process and our entire system of government.
As recently as January 22, 2021, Senator Cruz and Senator Hawley continue to
defend their actions, with Senator Cruz stating that he was just doing what he was
elected to do, and Senator Hawley stating that he will “never apologize” for trying to
overturn the legitimate election. Errol Louis, Ted Cruz and Josh Hawley have been
playing

with

dynamite

(2021),

available

at

https://www.cnn.com/2021/01/22/opinions/ted-cruz-josh-hawley-ethics-complaintcapitol-riot-louis/index.html.
While a Senate Ethics Committee complaint has been filed against Senator
Cruz and Senator Hawley, as of this filing, Petitioner is unable to find any indication
that the Texas State Bar has taken any action against Senator Cruz for his conduct,
nor that the Missouri State Bar has taken any action against Senator Hawley for his
conduct. Sabrina Eaton, Sen. Sherrod Brown of Ohio files ethics complaint against
Republican

Sens.

Ted

Cruz

and

Josh

Hawley

(2021),

available

at

6
https://www.msn.com/en-us/news/politics/sen-sherrod-brown-of-ohio-files-ethicscomplaint-against-republican-sens-ted-cruz-and-iosh-hawlev/ar-BBlcYENZ~). Again,
the state bars choose to sit idly by as attorneys who have been given the privilege to
practice law in their states continue to very publicly and very openly commit
violations of the rules regulating attorneys.
Compared to the statements and actions of the above individuals, the public
statements of Petitioner which formed the basis for her disbarment in both Florida
and New York pale in comparison. Petitioner never made false statements. Petitioner
never made statements which incited violence or encouraged an attack on our
government. Petitioner’s statements did not threaten the national security of the
United States. Petitioner’s statements did not result an attempt to assassinate many
members of the House of Representatives. All statements made by Petitioner
contained either opinion-based statements regarding what she was experiencing as
she attempted to obtain protection against domestic violence, or fact-based
statements which were supported by substantial evidence. It is apparent that the
state bars choose to target certain individuals, solely because their statements are
unpopular, while taking no action against attorneys whose statements constitute
blatant violations of rules regulating attorney conduct.
State bars hold the power to regulate attorney admissions and enforce rules
regulating lawyers practicing in their respective states. However, when states abuse
that regulatory authority by aggressively and unnecessarily censoring some
attorneys while turning a blind eye to others who are publicly and blatantly

7
committing violations, inciting violence, and encouraging the overthrow of our
government, the result is unconscionable. The result is that some attorneys are
afforded far greater protections under the First Amendment than others, which
clearly runs counter to the United States Constitution and sets a tremendously
dangerous precedent. The plain reading of the United States Constitution makes
clear that First Amendment protections apply to all individuals equally. It becomes
necessary for this Court to intervene to ensure consistent application of the rules and
consistent First Amendment protections for all individuals. As it stands, without
clear precedent from this Court, states can continue taking severe action against
attorneys like Petitioner, who made public political statements solely for the purpose
of increasing awareness about the struggles domestic violence survivors endure,
while ignoring the actions taken by attorneys whose statements result in devastating
damage to our entire system of government and to the integrity of the legal
profession. Absent clear, consistent guidelines from this Court, in practice, states will
continue to be allowed to grant greater First Amendment protections to some
attorneys, while stripping these rights from others, without any legitimate or legal
basis for doing so.

8

CONCLUSION
For the foregoing reasons, this Court should grant the petition for rehearing to
establish the proper test for attorney content-based political speech and the First
Amendment.

Respectfully submitted,
ASHLEY ANN KRAPACS
PO Box 21665
Fort Lauderdale, FL 33335
(202) 341-1509
KrapacsAA@gmail.com
Pro se Petitioner

February 1, 2021

M

No. 20-751
In The
Supreme Court of the United States

ASHLEY ANN KRAPACS
Petitioner,
v.
THE FLORIDA BAR,
Respondent.

On Petition for a Writ of Certiorari to the
Florida Supreme Court

RULE 44.2 GOOD FAITH CERTIFICATION
REGARDINGPETITION FOR REHEARING OF
DENIAL OF PETITION FOR WRIT OF CERTIORARI
Ashley Ann Krapacs, pursuant to Supreme Court Rule 44.2, hereby certifies
that the forgoing attached Petition for Rehearing and is limited to other substantial
grounds notpreviously considered and is made in good faith and not for delay.
Specifically, the grounds not specifically previously considered include recent
current events which transpired after the filing of Petitioner s Writ of Certiorari.

RECEIVED
MAR - 8 2021
OFFICE OF THE CLERK
SUPREME COURT. US,

1

Submitted this March 4, 2021.

Ashley Ann Krapacs
PO Box 21665
Fort Lauderdale, FL 33335
(202)341-1509
KrapacsAA@gmail. com

Subscribed and sworn to before me by the said affiant on the date below designated.

'lTrtA

|
=

JANICE KRAPACS
Notary Public, State of Ohio
My Commission Expires:
06/22/2025

2

